<html>
<title> - H.R. 1356, THE FREEDOM FROM SEXUAL TRAFFICKING ACT OF 1999</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
       H.R. 1356, THE FREEDOM FROM SEXUAL TRAFFICKING ACT OF 1999

=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   ON

                               __________

                             AUGUST 4, 1999

                               __________

                           Serial No. 106-62

                               __________

    Printed for the use of the Committee on International Relations




                      U.S. GOVERNMENT PRINTING OFFICE
60-798 CC                     WASHINGTON : 1999



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
CASS BALLENGER, North Carolina       EARL F. HILLIARD, Alabama
PETER T. KING, New York              BRAD SHERMAN, California
MATT SALMON, Arizona                 WILLIAM D. DELAHUNT, Massachusetts
THOMAS G. TANCREDO, Colorado         GREGORY W. MEEKS, New York
            Grover Joseph Rees, Subcommittee Staff Director
            George Colvin, Pearson Fellow for Ranking Member
                      Douglas C. Anderson, Counsel
                  Nicolle A. Sestric, Staff Associate




                            C O N T E N T S

                              ----------                              

                                APPENDIX

                                                                   Page

Prepared Statement

Hon. Christopher H. Smith, a U.S. Representatives in Congress 
  from the State of New Jersey, Chairman, Subcommittee on 
  International Operations and Human Rights......................    35

Bill and Amendment

H.R. 1356, The Freedom from Sexual Trafficking Act of 1999.......    10
Amendment to H.R. 1356, offered by Hon. Christopher H. Smith.....    34


  MARKUP OF H.R. 1356, THE FREEDOM FROM SEXUAL TRAFFICKING ACT OF 1999

                              ----------                              


                       Wednesday, August 4, 1999

                  House of Representatives,
                      Subcommittee on International
                       Operations and Human Rights,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 2:06 p.m., in 
room 2200, Rayburn House Office Building, Hon. Christopher H. 
Smith (Chairman of the Subcommittee) presiding.
    Mr. Smith. The Subcommittee will come to order. Good 
afternoon. We meet to consider H.R. 1356, the Freedom from 
Sexual Trafficking Act of 1999, pursuant to call, and the 
Ranking Member, Ms. McKinney from Georgia, will join us 
momentarily. But I will give a few opening remarks and then we 
will proceed with the markup after Mr. Goodling and Ms. 
McKinney have made their opening remarks.
    Each year up to a million innocent victims, of whom the 
overwhelming majority are women and children, are brought by 
force and or fraud into the international commercial sex 
industry. Efforts by the U.S. Government, international 
organizations, and others to stop this brutal practice have 
thus far proved unsuccessful. Indeed, all the evidence suggests 
that instances of forcible and or fraudulent sexual trafficking 
are far more numerous than just a few years ago.
    Only yesterday, the front page of the Wall Street Journal 
told the story of thousands of women who have been abducted in 
Vietnam and sold in China.
    The problem is not abstract; it shatters the lives of real 
women and children. In Russia, for example, traffickers prey on 
orphanages. In a typical scenario a trafficker will pay an 
orphanage director approximately $12,000 to take a group of 
children on a ``field trip'' to the local McDonald's. The group 
of children will then leave the orphanage with the trafficker 
and never be seen or heard from again.
    Part of the problem is that current laws and law 
enforcement strategies in the United States and in other 
nations often punish the victims more severely than they punish 
the perpetrators. When a sex-for-hire establishment is raided, 
the women--and sometimes children--in the brothel are typically 
deported if they are noncitizens of the country in which the 
establishment is located, without reference to whether their 
participation was voluntary or involuntary, and without 
reference to whether they will face retribution or other 
serious harm upon return. This not only inflicts further 
cruelty on the victims; it leaves nobody to testify against the 
real criminals, and frightens other victims from coming 
forward.
    H.R. 1356, the Freedom from Sexual Trafficking Act, would 
reverse this cruel and ineffective approach. It is designed to 
protect and assist the victims of sexual trafficking while 
inflicting severe and certain punishment on perpetrators. The 
central principle behind this legislation is that a person who 
knowingly operates an enterprise that profits from sex acts 
involving persons who have been brought across international 
boundaries for such purposes by force or fraud should receive 
punishment commensurate with that given to those who commit 
forcible rape. This would not only be a just punishment but 
also a powerful deterrent.
    H.R. 1356 would implement this principle across the board. 
First, it would modify U.S. Criminal law to provide severe 
punishment up to and including life imprisonment for persons 
convicted of operating such enterprises wholly or partly within 
the United States, and of course that includes transporting and 
other aspects of bringing the women across the Federal lines.
    It would also establish an office for the protection of 
victims of trafficking within the State Department, which would 
report annually on foreign countries that fail to criminalize 
and appropriately punish international sexual trafficking 
involving the use of force and/or fraud and to make other 
serious and sustained efforts to prevent it from operating 
within and across their borders. It would then prohibit 
nonhumanitarian U.S. assistance to such foreign countries 
unless this prohibition is waived by the President.
    The bill also provides victim assistance and protection. 
This includes grants to shelters and rehabilitation programs 
for victims of forcible and/or fraudulent sexual trafficking. 
It also includes a relief from deportation for victims who 
would face retribution or other hardship if removed from the 
United States. It makes clear that the trafficking victims are 
eligible for the Federal witness protection plan and provides 
them with a private right of action against those who have 
profited by the harm that was done to them.
    Finally, the bill authorizes grants for training for law 
enforcement agencies in foreign countries in the investigation 
and prosecution of international sexual trafficking, as well as 
for assistance in drafting and implementation of 
antitrafficking legislation.
    I am aware that this bill has some critics. For example, 
the Administration objects to the establishment of a new office 
within the State Department. But the Department already 
contains numerous offices devoted to a myriad of other concerns 
such as the Office of Multimedia Publishing Services, the 
Office of Small and Disadvantaged Business Utilization, the 
Office of Marine Conservation, and the Office of Press 
Relations. The millions of women and children victimized by 
worldwide sexual trafficking deserve no less attention than 
protocol and plankton.
    I stand ready, however, to work with the Administration 
toward a mutually agreeable solution so long as the 
Administration is committed to genuine negotiation and 
compromise.
    Let me just make a couple of points and then I will yield 
to any of my colleagues if they have any comments that they 
would like to make.
    I recently led a delegation to the OSCE assembly in St. 
Petersburg and during the course of that deliberation we were 
able to get passed a very strong, strongly worded resolution 
calling on all of the members of the OSCE to take effective 
action in their own country and to work in a collaborative way 
with other Nations to mitigate in the short term and completely 
end this heinous practice. I was amazed, in some of the 
conversations that I had in bilaterals and individually, 
including with the Speaker of the Duma, there was a sense of 
disbelief and ``not here,'' ``it doesn't happen here,'' or 
``that is just prostitutes, what are we worried about them for? 
'' I think that shows a gross insensitivity to this 
exploitation of women and I do believe that we can and must 
lead by example. This legislation attempts to do that.
    We did pass, like I said, that resolution. It passed 
unanimously. It was a very spirited debate. One amendment was 
offered by the Russians that actually strengthened it in the 
end. But there has to be a prioritization given to this and 
there must be tools available in order to make prosecutions 
effective and so that we put these individuals behind bars, 
hopefully for the rest of their lives, when they commit these 
terrible crimes.
    I would like to yield to any of my colleagues if they have 
any opening comments. We are awaiting Ms. McKinney, who will be 
here shortly. Mr. Goodling? Mr. Ballenger?
    Mr. Goodling. I might offer an amendment dealing with 
punishment for the men involved. I think the amendment would be 
germane; it might not be humane. So I will not offer it.
    Mr. Smith. I take your drift. I do think that would be 
proportionate. I think the gentleman makes an excellent point, 
even with the use of humor. We really are all about a very 
serious undertaking here but the sad part is the traffickers--
the people who coerce and defraud and force these women into 
these despicable situations--very often go scot free. We are 
now lacking I believe not only the right kind of law that makes 
prosecutions more likely, but also a prosecution strategy on 
the part of our U.S. Attorneys and others to go after these 
individuals who are exploiting these women.
    Yes, there is some work being done. All of it is positive. 
But there must be much, much more. One of the ironies of the 
fall of the Soviet Union and the breakup of the Soviet Union 
has been that the explosion of poverty that has occurred has 
resulted in a very fertile ground for organized crime--the 
syndicates, the Russian Mafia, the Ukrainian Mafia--to prey 
upon these women.
    I recently received a cable from some folks in Russia 
talking about what happened when some of our consular people 
met with other consular people in St. Petersburg in follow-up 
to some of the conversations we had there, and the responses 
from some of the other nation's representatives ranged from 
``they need to get more information,'' to ``they have heard 
rumors of this,'' to one who said they raised it with the 
Russian police who said ``there is none of that going on here, 
our women are just more beautiful,'' and just laughed. That 
kind of dismissal of this issue is absolutely unacceptable and 
we need to lead, like I said, by example.
    Mr. Ballenger. I would just, you know, I have seen one 
story on TV that kind of covered this a little bit. But I was 
reading the story about your, I guess, Jersey City Police 
director. This Zalisko, he knows where the women are and doing 
all of this. There is no law being broken anywhere?
    Mr. Smith. There are laws, but there is a problem of too 
few resources being focused on it and the laws are relatively 
weak. We have done some study on the maximum penalties that can 
be meted out, and they are up to 10-years. But they are very 
seldom given to those who commit these kinds of crimes. To a 
large extent there is a problem with law enforcement not taking 
this as seriously as it should. That goes for this side of the 
Atlantic and especially for the other side of the Atlantic.
    Mr. Ballenger. He mentioned 3- to 5,000 women just in that 
area of New Jersey. Kind of blows your mind. Like I said, what 
little bit I knew I saw on TV and that is it. But I commend you 
for being involved. Somebody has got to care.
    Mr. Smith. I appreciate that, Mr. Ballenger. As we know 
with U.S. Attorneys, when they decide what they are going to 
prosecute, they certainly have prosecutorial discretion. If the 
penalty is too low, they are more likely to skip going after a 
certain kind of crime and will focus instead on something where 
there is a higher penalty if conviction is realized. That is 
the problem we face with our current law. It is infirm.
    I have looked at some of the comments from those who are 
not necessarily enamored of what we are trying to do here. They 
make that point that part of the legislation says that we are 
to track what is going on in other countries, and the President 
has a national interest waiver so he doesn't have to impose 
sanctions, but nonhumanitarian sanctions can be imposed if 
certain criteria are not met and they are minimal criteria.
    It was suggested that somehow the U.S. would not live up to 
those criteria if they were applied to us. If that be the case, 
shame on us our law is not sufficiently strong, and has not 
prioritized this issue. Maybe it is because this has been 
thrust upon us so quickly. It is almost like when crack finally 
hit the streets. I remember in the city of Trenton police 
officers telling me that overnight this changed the whole crime 
scene, and yet we didn't respond to it in a substantive way for 
a couple of years. Slow learning curve. Hopefully, that will 
not be the case here.
    We do have a quorum. I think we can proceed. We have 
sufficient numbers to begin, unless there is objection. Out of 
respect for Ms. McKinney, and she does want to be here, we will 
delay a little bit longer. The Committee will stand in recess 
just for a couple of minutes.
    [Recess.]
    Mr. Smith. The Chair will lay the bill before the 
Committee.
    The Clerk will report the title of the bill.
    [The bill H.R. 1356 appears in the appendix.]
    The Clerk. H.R. 1356 to end international sexual 
trafficking, and for other purposes.
    Mr. Smith. Without objection, the first reading of the bill 
will be dispensed with. The Clerk will read the bill for 
amendment.
    The Clerk. A bill to end international sexual trafficking, 
and for other purposes. Be it enacted by the Senate and the 
House of Representatives of the United States of America and 
Congress assembled, section 1--.
    Mr. Smith. Without objection, the bill is considered as 
having been read and is open for amendment at any point.
    This bill was introduced, as I pointed out, on March 25th, 
it was referred on May 4th to the Subcommittee on International 
Operations and Human Rights, and since I have already made my 
opening comments, I yield to my good friend Ms. McKinney from 
Georgia.
    Ms. McKinney. Thank you, Mr. Chairman. I wish to express my 
deep appreciation to you for your personal efforts on the issue 
of sexual trafficking, including your recent visit to Russia to 
look into the issue of trafficking there, a practice that 
involves tens of thousands of Russian women. I join you in 
believing that this is a grave abuse that has not received 
enough attention and I wish to work with you in changing that 
situation.
    It is also obvious that many elements in this bill, from 
the strengthened criminal penalties for sexual trafficking to 
the substantial authorization for domestic victim programs will 
improve our work on this serious issue.
    Both our Chairman and his staff deserve credit for this 
outcome. I thus intend to support this bill, although I do have 
some reservations about the approach being used. One of these 
concerns relates to the scope of the bill. As important as 
sexual trafficking is, it is only one reason why people sell 
other people. People are also sold into bonded sweatshop labor 
and into domestic servitude and this is not just a labor issue. 
These are all slavery-like conditions often involving sexual 
exploitation by the employer as well. We ought to look for a 
way to deal with all of these conditions at once.
    This is the approach taken in H.R. 1238, the International 
Trafficking and Women and Children Victim Protection Act, 
introduced by Congresswoman Louise Slaughter, of which I am a 
cosponsor. I do not want to ignore the victims of sexual 
trafficking, which is one reason I will support Mr. Smith's 
bill. But I am sure he does not want to ignore these other 
victims of trafficking, which is why I hope we can find a way 
to bring them in as well.
    H.R. 1356 also repeats the procedure from our earlier 
legislation on religious persecution of creating a separate 
office on an important but selected human rights issue. About 
10-years from now when we are in the process of creating the 
15th separate human rights office and the 15th separate report, 
I suspect even those who got us started in this process with 
the best of intentions are going to have second thoughts. That 
the office of trafficking wouldn't be located in the 
Department's human rights bureau but isolated by itself could 
make it even less effective. We ought to look for more creative 
ways to increase our emphasis on issues without increasing 
bureaucracy.
    The issue of sanctions also needs more thought. It may be 
that trying to work cooperatively with other countries rather 
than beating them about the head and shoulders is the best way 
to make progress now on this issue, and the withdrawal of 
assistance is not a minor matter. Whatever we say sends a 
signal of general dissociation from the government of the 
country involved, which may do more harm than good. And again a 
future world of many human rights offices, each armed with a 
sanctions club, and with the President doing a hundred waivers 
a year to keep ordinary diplomacy moving, is something we want 
to avoid. If that is the direction we are going, I think we 
need to rethink our course.
    There are other concerns we should also consider. The 
authorizations in the bill are not necessarily all in the right 
amount or going to the right places and we need to think more 
about whether a burdensome report separate from the human 
rights report is really necessary.
    As we work further on this bill, I hope we will be able to 
hear from all of those with an interest in the matter. I regret 
we didn't have the opportunity to do a hearing in Subcommittee 
before our markup, and I particularly hope that senior 
officials from the Administration who are also committed to 
improving human rights observance will be given a chance to 
share their views with us in the near future.
    I do believe that the approaches by Louise Slaughter and 
our chairman in these separate bills are not necessarily at 
war. I expect that we will all work together with each other 
and with the Administration, with interested organizations to 
produce a final bill that will be better than anything we could 
do separately, and I intend to be strongly involved in that 
effort.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Ms. McKinney. Does any 
other Member have any opening comments? Mr. Salmon?
    Mr. Salmon. Thank you, Mr. Chairman. I know that this has 
been something that you have been working on for a long time 
and I really commend you and appreciate all of your hard work.
    When we were over in Russia just recently, we met with 
several NGO groups and nonprofit organizations that have been 
working on this issue, and it is a travesty. I mean it is a 
multibillion dollar industry here in this world. It amazes me 
the stories that we heard about buses pulling up to orphanages 
and loading on children and then go going and selling them for 
$24,000 apiece. And it just disgusts me that in our world today 
that these kinds of things could go on.
    There were allegations as well that in the government over 
there, they just kind of let it go on with a wink and a nod. 
That is wrong. And here we put out millions and millions of 
dollars in aid to Russia. I think it is time we put some 
stipulations on some of the money that we are sending over 
there. When their government turns a deaf ear to this kind of 
human suffering and misery, I think we have a responsibility to 
be a little bit more scrutinizing in how we dole out the money.
    But I commend you for putting together this resolution. I 
think it goes a long way, but I think the work will not be over 
here. We have a lot of work to do to try to end this travesty. 
And I commend the gentlewoman as well for her leadership on 
this issue. But it looks like we are the only ones that are in 
the world that are going to--at least as far as governments are 
concerned that are going to make an issue of this and if we 
don't do it, it is not going to get done.
    So I think that Congress has a big responsibility not only 
to be vocal about this but to lead the charge and there is so 
much at stake. So I commend the gentleman and the gentlewoman 
and I pledge my support to fighting the battle side by side.
    Thank you.
    Mr. Smith. I thank my good friend Mr. Salmon for his kind 
comments and especially for his work on this. And as we sat 
together, along with Mr. Tancredo, in St. Petersburg and met 
with the NGO's, the frontline people, some of the victims who 
are day to day trying to battle the syndicate, I was struck by 
the fact that not only are they trying to save women at risk--
and it is mostly women who are exploited, although there are 
some young boys--they themselves are at risk. This is a 
lucrative, multimillion dollar, if not billion dollar, racket, 
and the NGO personnel are put at risk of possible death.
    Mr. Salmon. If the gentleman would yield, and they are 
getting virtually no protection from the Russian Government. 
None. They have brought this issue to the attention of 
lawmakers in the Duma and they have brought it to the Speaker's 
attention and they are getting no protection. They are in a 
very dangerous situation and I think we have a responsibility. 
As we all know when we make it very public, I think that our 
fight here can shed some light. Sunlight is the best 
disinfectant, and by our actions maybe we can provide a little 
bit of protection for them because they are not getting it from 
the Russian Government.
    Mr. Smith. Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman. Just recalling our 
experience in Russia, and specifically in St. Petersburg, and I 
certainly agree with all of the comments that have been made 
and the incredible impact it had on all of us meeting with the 
NGO's and even that bilateral meeting we had with the Russians 
where we brought this up, of course, and they tried to indicate 
that it really was not as severe a problem as we know it to be, 
it is this severe. It is second only to drug smuggling, second 
only to narcotics in terms of the amount of money that 
organized crime is able to extort from the general public or to 
get from the public for this purpose. It is their second 
biggest product, which was incredible to me. I was astounded by 
that.
    We had not heard much about this in the past so the fact 
that it could rise to that level was quite extraordinary. And 
the other thing that deserves just a comment perhaps, Mr. 
Chairman, was the incredible fortitude of some of the people 
who are involved with this at the NGO's. There was this lady 
whose name escapes me, the doctor who gave up her practice, 
went and visited the old Soviet Union, became acquainted with 
this problem and ended up coming back here. She was a doctor 
here in the United States, came back here, sold her practice, 
gave up everything and has gone back, now is living in St. 
Petersburg and is the head of the most effective NGO dealing 
with this particular issue and she is a true inspiration to us 
all. And it was a very extraordinary experience.
    Mr. Smith. I thank the gentleman. And MiraMed is doing an 
extraordinary job and they too are at great risk.
    Any further comments? I do have one amendment. And I would 
like to offer it and the chief of staff will report the 
amendment.
    [The amendment appears in the appendix.]
    The Clerk. Amendment to H.R. 1356 offered by Mr. Smith of 
New Jersey. Page 11, line 18, strike Office of the--
    Mr. Smith. I ask unanimous consent to dispense with the 
reading of the amendment, and just very briefly--it will take 
30-seconds to explain it.
    We have already had a suggestion from the Administration 
and from my good friend Ms. McKinney that they would prefer 
that the office be housed in the Bureau of Democracy Human 
Rights and Labor. I don't think it weakens what we are trying 
to do. Perhaps it will strengthen it.
    So I would offer this in the spirit of compromise and I 
hope that the membership will accept it.
    Would anyone like to be heard?
    Ms. McKinney. I would just like to thank the Chairman for 
offering this amendment as a demonstration--as a down payment 
on a continuation of our cooperative spirit with respect to 
this legislation and I look forward to us continuing to work 
together to perfect it as it moves through the process.
    Mr. Smith. I thank you. And I say to my friend, one point 
that you made about if the President had to issue 100 waivers. 
I would submit that that would be an incredibly sad commentary 
on the state of the world with regard to women being exploited 
by traffickers, if the evidence was so overwhelming and a 
national interest waiver, which is probably one of the weakest 
imaginable, had to be invoked. But that would almost make our 
case.
    We have to wage war on the traffickers, not manage the 
issue, but wage war against this exploitation, or it will only 
get worse.
    All those in favor of the amendment say aye.
    Opposed say no.
    The ayes have it, and the amendment is agreed to.
    Any further comments before we go to passage? I would like 
to recognize my good friend, the gentleman from Pennsylvania, 
for a motion.
    Mr. Goodling. Mr. Chairman, I move the Subcommittee report 
the bill, as amended, favorably to the Full Committee.
    Mr. Smith. Without objection, the motion is agreed to. The 
question is on the motion of the gentleman from Pennsylvania.
    All those in favor, signify by saying aye.
    Opposed, no.
    The ayes have it and the motion is agreed to.
    I want to thank the Members of the Subcommittee for coming 
out and look forward to working with you at the next stage.
    [Whereupon, at 2:32 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             August 4, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] 60798.001
    
    [GRAPHIC] [TIFF OMITTED] 60798.002
    
    [GRAPHIC] [TIFF OMITTED] 60798.003
    
    [GRAPHIC] [TIFF OMITTED] 60798.004
    
    [GRAPHIC] [TIFF OMITTED] 60798.005
    
    [GRAPHIC] [TIFF OMITTED] 60798.006
    
    [GRAPHIC] [TIFF OMITTED] 60798.007
    
    [GRAPHIC] [TIFF OMITTED] 60798.008
    
    [GRAPHIC] [TIFF OMITTED] 60798.009
    
    [GRAPHIC] [TIFF OMITTED] 60798.010
    
    [GRAPHIC] [TIFF OMITTED] 60798.011
    
    [GRAPHIC] [TIFF OMITTED] 60798.012
    
    [GRAPHIC] [TIFF OMITTED] 60798.013
    
    [GRAPHIC] [TIFF OMITTED] 60798.014
    
    [GRAPHIC] [TIFF OMITTED] 60798.015
    
    [GRAPHIC] [TIFF OMITTED] 60798.016
    
    [GRAPHIC] [TIFF OMITTED] 60798.017
    
    [GRAPHIC] [TIFF OMITTED] 60798.018
    
    [GRAPHIC] [TIFF OMITTED] 60798.019
    
    [GRAPHIC] [TIFF OMITTED] 60798.020
    
    [GRAPHIC] [TIFF OMITTED] 60798.021
    
    [GRAPHIC] [TIFF OMITTED] 60798.022
    
    [GRAPHIC] [TIFF OMITTED] 60798.023
    
    [GRAPHIC] [TIFF OMITTED] 60798.024
    
    [GRAPHIC] [TIFF OMITTED] 60798.025
    
    [GRAPHIC] [TIFF OMITTED] 60798.026
    
    [GRAPHIC] [TIFF OMITTED] 60798.027
    
    [GRAPHIC] [TIFF OMITTED] 60798.028
    
    [GRAPHIC] [TIFF OMITTED] 60798.029
    

</pre></body></html>
